No.

^

^o

t

■

ORIGINAL
Supreme Court, U.sT
FILED

SEP 1 k 2020
OFFICc OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

GLENN YOUNG — PETITIONER
vs.
DARREL VANNOY, WARDEN — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

GLENN YOUNG
457113, PINE—2
LOUISIANA STATE PENITENTIARY
ANGOLA, LA 70712

QUESTIONS PRESENTED
This case also involves a non-unanimous verdict leading to the
following questions:
1.

Is the State’s evidence sufficient to sustain Young’s nonunanimous conviction?

2.

Was Young entitled to a unanimous jury verdict under the Sixth
and Fourteenth Amendments to the United States Constitution?

3.

Was Young was deprived of his constitutional right to the
effective assistance of counsel.

u

LIST OF PARTIES
[]

All parties appear in the caption of the case on the cover page.

[X] All parties do not appear in the caption of the case on the cover page.
A list of all parties to the proceeding in the court whose judgment is the
subject of this petition is as follows:
Glenn Young

James E. Stewart Sr., District Attorney

457113, Pine—2

Attention; Appeals Division

Louisiana State Penitentiary

501 Texas Street Fifth Floor

Angola, L A 7 0712

Shreveport, LA 71101-5408

m

TABLE OF CONTENTS
PAGE NO.
OPINIONS BELOW

1

.JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING AND STAYING THE WRIT

5

CONCLUSION

17

INDEX TO APPENDICES
Appendix

Page

A

Order Denying CO A

1

B

District Court’s Memorandum Ruling

5

C

Magistrate Judge’s Report and Recommendation

6

D

State Supreme Court’s Denial of Post-Conviction Relief

35

E

State Appellate Court’s Denial of Post-Conviction Relief

38

F

Trial Court’s Denial of Post-Conviction Relief

40

G

State Supreme Court’s Denial of Certiorari on Direct Appeal

41

H

State Appellate Court’s Opinion on Direct Appeal

42

IV

TABLE OF AUTHORITIES CITED
CASES
Arizona v. Hicks, 107 S.Ct. 1149 (1987)

PAGE NUMBER
7, 9

Draper v. State of Washington, 83 S.Ct. 774 (1963)

11

Henderson v. United States, 135 S.Ct. 1780 (2015),

15

Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781 (1979)
Register v. Thaler, 681 F.3d 623 (C.A. 5 (La.) 2012)

11, 14
9, 17

State v. Major, 2003-3522 (La. 12/1/04); 888 So.2d 798

14

State v. Toups, 01-1875 (La. 10/15/02); 833 So.2d 910

14

State v. Wallace, 46, 422 (La. App. 2 Cir. 8/10/11); 71 So.3d 1142,

4

Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 (1984),

5

Townsend v. Sain, 372 U.S. 293, 83 S.Ct. 745 (1963),

9, 10

United States v. Hagman, 740 F.3d 1044 (5th Cir. 2014)

15

United States v. Meza, 701 F.3d 411 (5th Cir. 2012)

15

U.S. v. Williams, 2018 WL 1940409 (C.A.5 (Tex.) 2018

14

Wallace v. Cain, WL 7502650 (W. D. La. 2018)

7

STATUTES AND RULES
La. R.S. 14:94

16

La. R.S. 14:95

16

Rule 10 of the United States Supreme Court
v

5

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
[x]

For cases from federal courts:
The opinion of the United States court of appeals appears at
Appendix A to the petition and is
x] reported at 809 Fed. Appx. 244; or,
has been designated for publication but is not yet reported;
[]
or,
[]
unpublished.
The opinion of the United States district court appears at Appendix
B to the petition and is
x] reported at 2019 WL 1006243; or,
has been designated for publication but is not yet reported;
[]
or,
[]
unpublished.

[x]

For cases from state courts:
The opinion of the highest state court to review the merits appears
at Appendix C to the petition and is
x] reported at 2011-1961 (La. 2/17/12); 82 So.3d 281; or,
has been designated for publication but is not yet reported;
[]
or,
[]
unpublished.

1

The opinion of the Louisiana Second Circuit Court of Appeal
appears at Appendix C to the petition and is
[x] reported at 46. 422 (La. Ann, 2 Cir. 8/10/10; 71 So.3d 1142; or,
[]
has been designated for publication but is not yet reported;
or,
[]
is unpublished.
JURISDICTION
[x]

For cases from federal courts:
The date on which the United States Court of Appeals decided my
case was June 12. 2020.
[x]

No petition for rehearing was timely filed in my case.

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

[x]

For cases from state courts:
The date on which the highest state court decided my case was
October 30. 2015.
A copy of that decision appears at Appendix D.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the United Sates Constitution provides in
pertinent part:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury ... and to have the
assistance of counsel for his defense.
The Fourteenth Amendment to the United Sates Constitution provides
in pertinent part:
No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Louisiana Constitution Article 1, § 17
A Criminal case in which the punishment may be capital shall be
tried before a jury of twelve persons, all of whom must concur
to render a verdict. A case in which the punishment is
necessarily confinement at hard labor shall be tried before a jury
of twelve persons, ten of whom must concur to render a verdict.
La. C. Cr. P. art. 782
A Criminal case in which the punishment may be capital shall be
tried before a jury of twelve persons, all of whom must concur
to render a verdict. A case in which the punishment is
necessarily confinement at hard labor shall be tried before a jury
of twelve persons, ten of whom must concur to render a verdict.
La. C. Cr. P. art. 821(B)
A post verdict judgment of acquittal shall be granted only if the
court finds that the evidence, viewed in a light most favorable to
the state, does not permit a finding of guilty.

3

STATEMENT OF THE CASE
Young was tried and convicted for one count of possession of a
Schedule II controlled dangerous substance over 28 (but less than 200) grams
of cocaine and one count of illegal use of a weapon. He was convicted on
both counts by a non-unanimous (10-2) vote. Young was adjudicated a third
felony offender and sentenced on count one to serve fifty years at hard labor
without the benefit of parole for the first five years. On count two he received
a concurrent fifty-year-sentence at hard labor without the possibility of parole.
The state appellate court remanded the case to the trial court for resentencing
on count two because the sentence exceeded Young’s “exposure of two years,
with or without hard labor.” State v. Wallace, 46, 422 (La. App. 2 Cir. 8/10/11);
71 So.3d 1142, 1149.
Young unsuccessfully appealed his convictions and sentences to the
state appellate and supreme courts. His collateral attacks against both have
also been unsuccessful. On February 11, 2019, a federal magistrate judge
recommended Young be denied habeas relief and his case be dismissed with
prejudice. On March 1, 2019, the district court adopted the magistrate’s
recommendation and denied Young’s habeas petition. On June 12, 2020, the
Fifth Circuit Court of Appeals denied Young’s request for a Certificate of

Appealability and further declined to grant his request for an evidentiary hearing. This
instant petition for a writ of certiorari timely follows.
REASONS FOR GRANTING AND STAYING THE WRIT
On May 4, 2020. the Court granted a petition for a writ of certiorari in Edwards v.
Vamioy,

S. Ct.

(2020)(No. 19-5807) to determine if the “Courts

decision in Ramos v. Louisiana, 590 U.S.

2020) applies retroactively to cases on

federal collateral review. Young respectfully asks this Court to stay this petition pending
it’s deci sion in Edwards v. Vannoy, and then dispose of die petition as appropriate in
light of that decision.
Under Rule 10. the Louisiana courts and the United States Fifth Circuit Court of
Appeals has denied relief in contrarily decided important questions of federal laws that
has been settled by this Court and has decided an important, federal question in a way
that conflicts with relevant decisions of this Court as set fourth, below:

5

1.

Young's trial counsel's performance was deficient which-resulted in prejudice

contrary to the Fourth, Fifth, Sixth, and Fourteenth Am.etidm.enis to the United States
Constitution as explained in. Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2053
(1984).
A.

Young's trial counsel rendered ineffective assistance for failure to file a Motion to

Suppress Illegally Obtain Contraband
On March 7, 2007, the Shreveport. Police Department (S.P.D.) executed a search
warrant for the residence of 2997 Hattie Street in. Shreveport, Louisiana, in search of a
40 caliber handgun and .40 caliber ammunition and two suspects. Upon this search, the
S.P.D. Quickly located the .40 caliber handgun with .40 caliber ammunition, which was
located in the kitchen cabinet, and arrested the two suspects. The S.P.D. Secured the .40
caliber hand gun with the ammunition by giving it to the case agent, Lee Scott,

who was outside of the residence with the two suspects arrested outside in handcuffs. At
this point', the S.P.D. Made a successful search, and seizure and the arrest of the two
suspect; therefore, the search should have been terminated and no more further
government intrusion is allowed.
However, it was not until the case agent, Lee Scott, decided to reenter the
residence and started another search looking for items not contain in the warrant after
the fruits of the warrant, was already in Ms possession and secured. See Arizona v. Hicks,
107 S. Ct. 1149, 1.152-54 (1987); the search and seizure of drugs and paraphernalia from
the home went beyond “the objectives of the authorized intrusion” where it “produce[d]
a new invasion of [Young's] privacy unjustified by the exigent circumstance that
validated entry.” Arizona v. Hicks, 107 S. Ct., at 1152. hi other words, the S.P.D. Went
beyond the scope of the warrant. The Fourth Amendment prohibits unreasonable search
and seizure see Coolidge v. New Hampshire, 91 S. Ct. 2022.

7

The ease agent, Lee Scott, reentered the residence and found one bag of cocaine in the
living room under a couch which was not. in plain ’view. The reentry of the residence and
starting another search apart, from the original search after the fruits of the search were
secured in his possession was unreasonable, unjustifiable, and it prohibits what the
Fourth Amendment requires. The case agent, Lee Scott stated in his testimony that the
cocaine was not in plain view and he couldn't see it unless he moved the couch. This is
identical to Arizona v. Hicks supra where the officer's actions in moving equipment, to
locate the serial number constituted another search.
Hearing the testimony by agent, Lee Scott, defense counsel should have objected
and filed a Motion to Suppress this evidence from use at trial.. The state argued, “The
police were not required to immediately end the search once a single weapon and some
ammunition were recovered. They had been told that there were multiple shooters and
that

8

two men in the home had such weapons. Poli.ee were entitled to continue the search until
they recovered all such weapons and ammunition, together with any items that they
encountered in plain view during the course of that search. Counsel would have lacked
legal authority to obtain, the exclusion, of the evidence ...”
In this case, the search-warrant describe for a .40 caliber handgun and .40 caliber
ammunition and these items were recovered; therefore, the S.P.D. Should have
terminated their search. The contraband they found was after they found the .40 caliber
handgun with ammunition. The contraband was under a couch and not in plain view and
defense counsel did not lack legal authority to obtain the exclusion of the evidence. In
Coolidge v. New Hampshire. 91 S. Ct. 2022, Mr. Justice White states in his opinion,
“Police with a warrant for a rifle may search only places where rifles might, be and must
terminate the search once the rifle is found... 55

q

The purpose of the search warrant, executed on 2997 Hattie Street, as acknowledged by
the federal, district court was to search “for a. .40 caliber handgun, and ammunition.”
Appendix C. p.19. Young argued that his trial counsel rendered ineffective assistance
because his counsel failed to object and challenge the reentry of a unlawful search and
seizure.
If this Court righteously decide to grant this Writ, a review of the full record will
reveal that all. the agents that executed the search warrant, exited the residence after the
fruits of the warrant were recovered and secured n their testimony. The case agent, Lee
Scott, had no authority to reenter the residence and s tart another search apart from the
original search. Young's counsel did not lack “legal authority to obtain exclusion of the
[illegally seized] evidence” and therefore, he shall be entitled to the suppression of tins
evidence. See Arizona v. Hicks, 107 S Ct. 1149 (1987). Young is a pro se litigant;
therefore, he should not be held to the standard of an cMome*|. Arizona W<. Wicks, ioi

S.CWm«UrtM)j Rejistei >/. Tha\et,4.81 F.3d 4Z3, M (C.A5(La.)20IZ),

10

B. Young's trial, counsel rendered ineffective assistance when he failed to challenge the
Affidavit in. Application for Search Warrant
Young contends that this Sixth Amendment Ineffective Assistance of Counsel
claim is based on trial counsel's failure to challenge the affidavit is distinct from a
Fourth Amendment, claim challenging the admission of eviden.ce. See Kimmelon v.
Morrison, 106 S. Ct. 2574. The Fourth Amendment contains two separate clauses; (1) A
prohibition against unreasonable search and seizures; (2) Acquirement that probable
cause support each warrant issued. See United States Constitution Amendment Fourth
and Fourteenth; Mapp v. Ohio, 367 U.S. 643 (1961).
Detective, Lane Smith, prepared an affidavit in. application for a Search Warrant
on May 4, 2007. Young contends that the affidavit must not be lacking in probable cause
and if the affidavit is lacking in. probable cause, the affidavit in application, for a search
warrant, can

11

be challenged by a pretrial Motion to Suppress and it is the duty and obligation of the
defense counsel to do such.
The United States Supreme Court defines probable cause to search as affair
probability that contraband or evidence of a crime will be found in a particular place
See Illinois v. Gates, 103 S, Ct. 2317, 462 U.S. 213 (U.S. 111. 1983) In determining if the
affidavit in application for search warrant was lacking probable cause, we must review
the detailed interview between. Marcus Thomas (the victim) and Detective Lane Smith
that occurred on May 4, 2007 in. pertinent part: The Affiant was able to conduct a
detailed interview with Marcus Thomas and Thomas informed Detective, Lane Smith,
that Greg Young, Bobby Wallace, and Glenn Young were the three suspects who shot at
him. Marcus Thomas told Detective Lane Smith that. a. source who wished to remain
unknown described Bobby Wallace and Glenn Young as to having .40 caliber handguns.
Marcus Thomas also told Detective Smith that, the suspects ran to the address of 2997
Hattie Street after firing several shots.
After reviewing the detailed interview in pertinent part, probable cause does not
exist, for a search warrant. Let's review three important factors to see if probable cause
existed: (1) Marcus Thomas reported

11

the shooting incident on April 30, 2007 and Detective Lane Smith did a detailed
interview on May 7, 2007 one week later. (2) Marcus Thomas informed Detective Lane
Smith that a “source who wished to remsrin unknown” described Bobby Wallace and
Glenn Young having .40 caliber handguns. (3) Detective Lane Smith had no physical
evidence that Glenn Young lived at that address other than what Marcus Thomas told
him. In Illinois v. Gates, supra, “The totality of the circimi.stan.ces has informed probable
cause determinations.” and the totality in. this case probable cause for a search warrant
does not exist here. Furthermore, Detective Lane Smith stated the following in his
testimony at Young's trial:
r\
V.

Donut gives you evidence that he believes that the
weapon that was used against him. was in the house.
he tells you that right?

A.

No he tells me these guys live at this house

Q.

Okay

A.

But to say that he knows for a fact the gun is inside the
house he couldn’t do that.

Q-

All right, did he tell you how he knew that they carried .40 caliber gun?

U

A..

Through word on the streets.

The affidavit is severely lacking probable cause and counsel should have filed a Motion
to Quash or Suppress the affidavit and suppress said evidence from, use at trial Had.
counsel filed a Motion to Quash the affidavit there is a fair probability that the outcome
would have been different.

n

C®

Young's trial counsel rendered ineffective assistance when he
failed to request a continuance.

The state courts summary disposition of this claim does nothing to
satisfy due process and equal protection. According to the district court,
Young’s claim that his “counsel was surprised by the weapons charge is not
supported by the record” is misplaced. Young was not granted an evidentiary
hearing to expand the record in the face of a factual dispute. The only person
who can say whether Young’s counsel was surprised or not is the attorney.
The attorney, however, has not said anything and neither was he given an
opportunity to do so because Young has been deprived of a chance to expand
the record at an evidentiary hearing. See Townsend v. Sain, 372 U.S. 293, 83
S.Ct. 745, 9 L.Ed.2d 770 (1963).

0 -

Young’s trial counsel rendered ineffective assistance when he
failed to object (or request a mistrial) when the prosecution
repeatedly mentioned marijuana found, after being instructed not
to do so.

The district court mis characterized Young’s claim. The basis of the
claim is the prosecution’s consistent attempt to introduce evidence of other
crimes without having lain a proper foundation. The trial court had instructed

15

the prosecution not to talk about marijuana that was found in the jury’s
presence. With complete disregard for the court’s instruction, the prosecutor
asked Young if he knew about the marijuana found in the house in the jury’s
presence. This was the third or fourth reference to the marijuana and it not
innocent reference or harmless. Also, the district court’s speculation about
what counsel’s strategy was or was not is just that—speculation. Young is
entitled to relief because he was not granted an evidentiary hearing to resolve
the factual dispute he presented for review. See Townsend v. Sain, supra.
Yoimg’s trial cotmsel rendered ineffective assistance when he
failed to note the race and gender of the jury.
Contrary to the lower courts opinions, Young’s trial counsel’s
reputation is of no consequence. Appendix C, p. 23. In fact, what counsel is
known for and what he failed to do are two different things. Just as with
counsel’s failure to object to Agent Recchia’s testimony, his failure to
articulate the race and gender of jurors who were struck by the prosecution
under pretense serves as another example of deficient performance that has
caused Young prejudice.
F*

Yo wig’s tria l counse l rendere d in effe c live ass is tan ce when he
failed to request the transcription of recorded conversations
during bench conferences.

u

Young did not rely on independent and adequate state court rules and
statutes for a resolution of his case. Contrary to the district court’s assessment,
Young argued that his appellate counsel could not argue anything left out—
things “that are germane to [the] consideration of an appeal.” Appendix C,
p. 29 (citing Draper v. State of Washington, 83 S.Ct. 774 (1963)). The
assertion that Young has to particularize something he was not privy to is
misplaced. The very point of his claim is that important things took place at
the Bench and he cannot avail himself of any irregularity without the record,
especially where he was not allowed to hear what was said at the Bench.
Yoimg’s trial counsel rendered ineffective assistance when he
failed to object to the testimony of the agent on the Special
Response Team.
The district court adopted the magistrate’s contention that.
The questions at issue were not an important part of the state’s
prosecution, and there was no argument that the testimony about
the SRT entry supported a finding of guilt. There is little reason
to believe that the verdict would have been different had this
testimony not been presented. Accordingly, the state court’s
denial of this claim was not an objectively unreasonable
application of clearly established federal law.
Appendix C, pp. 31-32.
First of all, by adopting the MJ’s recommendation, the district court
has admitted the prosecution’s case was not a slam dunk and reasonable

n

jurist could debate about the sufficiency of the State’s evidence under
Jackson. See Appendix C, p, 14. Secondly, the jury’s non-unanimous verdict
is also proof of reasonable doubt. There is more than little reason to believe
the verdict could have been different.
Detective Smith’s search warrant does not contain any information
about drugs; however, Agent Recchia told the jury that drugs were the
primary reason for entry into the home. The district court’s determination
that “there was no argument that the testimony about the SRT entry
supported a finding of guilt” is misplaced. Considered objectively and under
federal jurisprudence, there is “reason to believe that the verdict would have
been different had this testimony not been presented.” Appendix C, p. 32.
Especially if Young’s trial counsel would have objected when Agent Recchia
changed the facts of this case by presenting false testimony about the reason
for the search.
Young’s trial counsel rendered ine ffective assistance when he
failed to request that the jury be instructed about an
accomplice’s testimony.
The district court determined there “was nothing in Elie’s testimony
that directly incriminated [Young] as possessing the cocaine that was found
in the house. Rather he said that he did not know whether the people in the

IB

house were involved in drugs.” Appendix C, p. 33. The district court further
determined that after Elie testified to supposedly hearing Young say “he
needed to get a Reggie,” Young allegedly said he was “just playing” because
he did not have any money. See Appendix C, p. 33. The district court also
acknowledged that Elie pled guilty to actually possessing the drugs that
were found. In this case, the State could not point to any material evidence
to support its allegation that Young was in constructive possession of the
drugs seized. Still, the State sought to prosecute him for constructive
possession after Elie pled guilty to actual possession and was sentenced to
probation. If Elie was innocent, he should not have pled guilty. And, if the
State believed Elie was innocent, he should not have been prosecuted. At
any rate, Young was entitled to the cautionary accomplice instruction.
2.

Under the reasonable jurist standard, the State’s evidence is not
sufficient to sustain Young’s conviction.
According to the district court, the state court’s determination that the

evidence was sufficient to convict Young in this case is adequate to withstand
doubly deferential habeas review. The district court’s conclusion is in direct
conflict with the magistrate’s assessment of the case. The district court
admitted the prosecution’s case was not a slam dunk and that reasonable

1<\

jurist could debate about the sufficiency of the State’s evidence under the
Jackson .standard, Id., cf. Jackson v. Virginia, 99 S.Ct. 2781, 2789 (1979).
The State did not prove, beyond a reasonable doubt, under Jackson v.
Virginia, that Young knowingly or intentionally possessed the drugs found in
his sister’s home. Because this case was based on circumstantial evidence,
the State had the burden of proving that Young had “sufficient control and
dominion to establish constructive possession ... knowledge that drugs were
in the area ... his relationship with the person, if any, found to be in actual
possession ... his access to the area where the drugs were found ... evidence
of recent drug consumption ... and his physical proximity to drugs.” Siate v.
Major, 2003-3522 (La. 12/1/04); 888 So.2d 798, 802; State v. Toups, 011875 (La. 10/15/02); 833 So.2d 910. The morning the police executed their
search warrant, Young was at his sister’s house asleep in a back bedroom.
The State did not present any evidence that Young knew drugs were in the
house. Moreover, mere knowledge of the presence of drugs would not be
sufficient to establish constructive possession. In an unpublished case, the
Fifth Circuit Court of Appeals made clear that it is the prosecution’s burden
to show Young “had the power and intent to exercise control over the [drugs]”
U.S. v. Williams, 2018 WL 1940409 (C.A.5 (Tex.) 2018; quoting Henderson

2.0

V. United Slates, —U.S. —, 135 S.Ct. 1780, 1784, 191 L.Ed.2d874 (2015);
also citing United States v. Hagman, 740 F.3d 1044, 1048 (5th Cir. 2014);
United States v. Meza, 701 F.3d 411, 419 (5th Cir. 2012). The State claimed
Young was in constructive possession of cocaine because he was in a house
where drugs were found. His mere presence, however, was not sufficient to
support this conviction.
The State further failed to meet its burden of proving Young illegally
used a firearm in the alleged shooting against Marcus Thomas. Initially,
Thomas did not implicate Young as one of the alleged perpetrators who
supposedly shot-up his vehicle. In fact, Thomas gave two statements to
investigators and did not implicate Young. Thomas initially named Greg
Young and Bobby Wallace as two of the people who shot at his vehicle. One
week later, after an interview with investigators, Thomas implicated Young
in the alleged shooting. His testimony concerning this one incident also
changed at trial when he named the prosecution’s key witness, Elie, as one
of the shooters. Had the jury rationally considered this information, in
addition to Elie’s self serving testimony, the outcome of Young’s trial would
have been different. Contrary to the MJ’s assertion, Elie is the perfect
candidate for criminal activity. His economic status is what makes it more

21

ft
likely “that [being] seldom employed and homeless” would have a connection
to a significant and expensive amount of drugs—especially if he was given
an advance of drugs to sell. This idea would serve to explain why he pled
guilty to possessing drugs that were, allegedly, not his in the first place. Not
to mention, he was sentenced to probation in exchange for his testimony.
&

The trial court entertained this matter without proper jurisdiction
in violation of the Fifth and Fourteenth Amendment to the
United States Constitution.
The State filed a bill of information alleging that Young violated the

provisions of La. R.S. 14:95. Although the State claims it filed an amended
bill of information to reflect a violation of La. R.S. 14:94, the State’s alleged
proof did not materialize until after Young filed his original habeas petition.
Young submitted an official copy of the criminal court minutes undermining
the State’s claim that the bill of information was amended on March 31, 2008.
Accordingly, if the trial court did not have jurisdiction to entertain the
allegation contained in the State’s bill of information, then Young’s right of
due process and equal protection were violated. Also, while it is insisted that
a pro se litigant’s claims be presented, the measure for that accounting does
not include a willingness to hold pro se litigants “to the same stringent and
rigorous standards as are pleadings filed by lawyers.” Register v. Thaler.; 681

2.7.

5.

F.3d at 628 (internal quotation omitted). Accordingly, Young is entitled to
habeas relief concerning this claim.
CONCLUSION
For the foregoing reasons Young’s petition for a writ of certiorari
should be granted and held in abeyance pending this Court’s decision in
Edwards v. Vannoy,

S.Ct.

(2020) (No. 19-5807) and then be

disposed of as appropriate in light of that decision.
Respectfully submitted,

'JJAl.

GLENN YOUN;
Date:Sfcp-K jtl_, 2020

23

